BECKER GALLAGHER
Briefs

and

DoNNA ). WOLF,
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for a Writ of
Certiorari in Carl Leeper v. Hamilton County Coal,
LLC and Alliance Resource Partners, L.P., were sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day Service and e-mail to
the following parties listed below, this 23rd day of
January, 2020:
Allison Crutcher Cooke
Richard Garrett Griffith
Elizabeth Smith Muyskens
Kif H. Skidmore
STOLL KEENON OGDEN PLLC
300 W. Vine Street, Suite 2100
Lexington, KY 40507-1801
859-231-3053
allison.cooke@skofirm.com
richard.griffith@skofirm.com
elizabeth.muyskens@skofirm.com
kif.skidmore@skofirm.com
Counsel for Respondents
Kevin P. Green
Counsel of Record
Thomas P. Rosenfeld
GOLDENBERG HELLER & ANTOGNOLI, P.C.
2227 South State Route 157
Edwardsville, IL 62025
618-656-5150
kevin@ghalaw.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

J.D.

KERSHNER,

J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 23, 2020.

Julie A. Kershner
Becker Gallagher Le 1 Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
I-

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, Stale of Ohio
My Commission Expires

February 14, 2023

